<html>
<title> - RAPE KIT BACKLOGS: FAILING THE TEST OF PROVIDING JUSTICE TO SEXUAL ASSAULT SURVIVORS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  RAPE KIT BACKLOGS: FAILING THE TEST OF PROVIDING JUSTICE TO SEXUAL 
                           ASSAULT SURVIVORS

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

                           Serial No. 111-115

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
56-523                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
MIKE QUIGLEY, Illinois
TED DEUTCH, Florida

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 20, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     6

                               WITNESSES

The Honorable Carolyn B. Maloney, a Representative in Congress 
  from the State of New York
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
The Honorable Anthony D. Weiner, a Representative in Congress 
  from the State of New York
  Oral Testimony.................................................    20
  Prepared Statement.............................................    23
The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    25
  Prepared Statement.............................................    29
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36
Kym L. Worthy, Esq., Wayne County Prosecutor, Detroit, MI
  Oral Testimony.................................................    41
Ms. Valerie Neumann, Sexual Assault Survivor, Cincinnati, OH
  Oral Testimony.................................................    43
  Prepared Statement.............................................    46
Ms. Mariska Hargitay, Joyful Heart Foundation, New York, NY
  Oral Testimony.................................................    50
  Prepared Statement.............................................    52
Christian Hassell, Ph.D., Assistant Director, Laboratory 
  Division, FBI, U.S. Department of Justice, Washington, DC
  Oral Testimony.................................................    63
  Prepared Statement.............................................    71
Mr. Jeffrey S. Boschwitz, Ph.D., Vice President, North American 
  Sales and Marketing, Orchid Cellmark, Inc., Princeton, NJ
  Oral Testimony.................................................    77
  Prepared Statement.............................................    80
Mr. Peter Marone, Director, Virginia Department of Forensic 
  Science, Richmond, VA
  Oral Testimony.................................................    88
  Prepared Statement.............................................    91

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Louie Gohmert, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Crime, Terrorism, and Homeland Security     3
Prepared Statement of the Honorable Richard Shelby, a U.S. 
  Senator from the State of Alabama..............................     8
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    13
Letter to the Honorable Robert S. Mueller, Director, Federal 
  Bureau of Investigation, submitted by the Honorable Anthony D. 
  Weiner, a Representative in Congress from the State of New York    27
Prepared Statement from the Office of Justice Programs, U.S. 
  Department of Justice..........................................    64
Report from Human Rights Watch, submitted by the Honorable Robert 
  C. ``Bobby'' Scott, a Representative in Congress from the State 
  of Virginia, and Chairman, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................   107

                                APPENDIX

Material Submitted for the Hearing Record........................   175


  RAPE KIT BACKLOGS: FAILING THE TEST OF PROVIDING JUSTICE TO SEXUAL 
                           ASSAULT SURVIVORS

                              ----------                              


                         THURSDAY, MAY 20, 2010

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:10 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Nadler, Cohen, 
Weiner, Quigley, Gohmert, Poe, and Goodlatte.
    Staff Present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Jesselyn McCurdy, Counsel; Veronica Eligan, 
Professional Staff Member; (Minority) Caroline Lynch, Counsel; 
Art Baker, FBI Detailee; and Kelsey Whitlock, Staff Assistant.
    Mr. Scott. The Subcommittee will come to order.
    I am pleased to welcome you to today's hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security 
entitled ``Rape Kit Backlogs: Failing the Test of Providing 
Justice to Sexual Assault Survivors.''
    When a person is raped and reports the crime to police or 
goes to the hospital, he or she will be asked to submit to the 
collection of a rape kit. A rape kit is a collection of any 
physical evidence the attacker may have left behind, and the 
process of collecting the evidence can take anywhere from 4 to 
6 hours.
    When the police officer takes the rape kit and books it 
into police evidence, victims may assume that the kit is sent 
to the crime lab for testing. Actually, many rape kits remain 
in police evidence storage facilities for years after they are 
collected and are never tested. Even when kits are submitted to 
the crime lab for testing, it can take months for the crime lab 
to get the results back to the requesting police officers. 
Although most victims who report being raped consent to the 
very invasive and time-consuming process of having evidence 
collected for a rape kit, many of these kits are never tested.
    Studies have shown that when a rape kit is collected, 
tested, and contains offender DNA, it is significantly more 
likely that the case will be prosecuted than cases where no 
rape kit is collected. Also, research shows that evidence such 
as a rape kit is important to prosecutors when deciding whether 
to bring the charge in the first place. There is growing 
evidence that juries have come to expect DNA evidence in order 
to convict a defendant. These findings show how important the 
rape kit collection and testing is in solving crimes and 
convicting rapists.
    Crime labs across the country are flooded with requests for 
DNA testing. A recent report found that public crime labs saw 
their DNA backlog double in 2005. Research also concluded that 
public crime labs across the country would need to increase 
their DNA analyst staff by 73 percent to keep up with DNA 
testing needs and requests.
    In some jurisdictions, these staff shortages and increasing 
numbers of requests for DNA testing have led to backlogs in 
processing rape kits. The rape kit backlogs originate at two 
points in the criminal justice process: First is when the rape 
kit is booked into evidence in storage facilities but 
detectives do not request a DNA test of the kit. Other backlogs 
exist in police crime labs where kits are submitted for DNA 
testing and the testing does not take place in a timely manner.
    These massive backlogs of untested rape kits are allowing 
offenders to perpetrate crimes that would not otherwise having 
been committed had these rape kits been tested.
    In 2004, Congress recognized the problem of rape kit 
backlogs in crime labs and passed the Debbie Smith Act, named 
after a sexual assault survivor whose attacker could have been 
caught 6 years sooner had her rape kit been processed in a 
timely manner. The Debbie Smith Act provides grant money to 
States for any type of DNA testing, including testing of rape 
kits. Although States are receiving Debbie Smith funds to 
eliminate DNA backlogs, some of the money is going unspent 
because of State and local laws that prohibit using money to 
hire crime lab staff.
    During today's hearing, Representatives Carolyn Maloney and 
Anthony Weiner will testify about bills each have introduced to 
specifically address the rape kit backlog problem. 
Representatives Adam Schiff and Jerry Nadler will also testify 
about their work in Los Angeles and New York City, 
respectively, to address backlogs in those cities. Our other 
witnesses will discuss why testing rape kits is so important to 
victims of sexual assault and how public and private labs can 
use their resources to reduce and avoid backlogs.
    It is now my pleasure to recognize the esteemed Ranking 
Member of this Subcommittee, the gentleman from Texas, Judge 
Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    And I thank each of our witnesses for appearing here, with 
my apologies for being late.
    And out of deference to them, I would ask that my written 
statement be submitted for the record so that we can go 
straight to their testimony.
    [The prepared statement of Mr. Gohmert follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. Thank you. Without objection.
    Does the Chairman of the Committee, Mr. Conyers, have a 
statement?
    Mr. Conyers. Well, I only wanted to point out that it may 
be accidental that all of our distinguished Members of Congress 
are from New York, save one, Adam Schiff, who is from 
California. And the question is, what does that mean, since we 
have more than two States in the Union?
    And what I am thinking that it means is that New York is 
doing--and I will be listening to their testimony--they are 
doing a good job, but they just need far more resources. But 
they have a huge backlog. And the question that brings us here 
today is, how do we get rid of the backlog? Do we give public 
labs more money? Or do we give them more money to hire people 
to get rid of the backlog? And I think we are going to hear 
this come out in the testimony from our Members, three of which 
are from the Committee itself.
    And we are very proud, Chairman Scott, that you have put 
this focal point on an issue that is really something that can 
be addressed and remedied. And I also appreciate the bipartisan 
nature of the work. I particularly praise Judge Louie Gohmert 
for his work in this effort, as well.
    Mr. Gohmert. Will the gentleman yield?
    With regard to the bipartisan nature, we had two witnesses 
that were scheduled to be here--Representative Peter King, also 
from New York, but also Senator Shelby--who were both unable to 
get here this morning. But they were scheduled to make this a 
very bipartisan panel but were not able to make it.
    Mr. Conyers. Well, thank you, Louie. We will put their 
statements in the record, if necessary.
    Mr. Gohmert. Thank you.
    [The prepared statement of Mr. Shelby follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. As well as Sheila Jackson Lee, who has worked 
on this extensively and, because of her mother's passing, will 
not, of course, be here. I ask unanimous consent that she be 
able to insert her statement into the record, if necessary.
    And I yield back my time, Chairman Scott.
    Mr. Scott. Thank you.
    And, without objection, in view of the time constraints we 
are under, other Members will be asked to include opening 
statements for the record at this point.
    [The prepared statement of Mr. Conyers follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. We have two panels of distinguished witnesses 
today to help us consider this important issue. Our first panel 
consists of four Members of Congress.
    The first witness is Congresswoman Carolyn Maloney, who 
represents the 14th District of New York. She is recognized as 
a national leader in financial services, national security, the 
economy, and women's issues. As a senior Member of the 
Financial Services Committee and Oversight and Government 
Reform Committee, Representative Maloney is known as a champion 
for domestic and international women's issues. She is the 
original sponsor of H.R. 4114, the ``Justice for Survivors of 
Sexual Assault Act of 2009,'' which she will testify about 
today.
    Our second witness will be Congressman Anthony Weiner, who 
represents the Ninth District of New York. He currently sits on 
the Energy and Commerce Committee, Judiciary Committee, and is 
a member of the Democratic leadership team. He is the original 
sponsor of H.R. 2157, the ``DNA Expansion and Improvement Act 
of 2009.''
    The third witness is Congressman Adam Schiff, who 
represents California's 29th Congressional District. He is a 
Member of the Appropriations and Judiciary Committees and the 
Permanent Select Committee on Intelligence. As a former 
prosecutor, he brings expertise to the Judiciary Committee on 
issues such as intellectual property theft and piracy of 
copyrighted materials.
    And our final witness on the panel is Congressman Jerry 
Nadler, who represents New York's Eighth District. 
Representative Nadler is Chair of the Judiciary Committee's 
Subcommittee on the Constitution, Civil Rights, and Civil 
Liberties. He is also a Member of the Transportation and 
Infrastructure Committee and is an assistant Democratic whip.
    As has been pointed out, other Members wanted to be here 
but couldn't, particularly Sheila Jackson Lee, who was 
instrumental in calling this hearing today.
    Our Members are familiar with the lighting system, so we 
would ask you to begin your testimony now, with Congresswoman 
Maloney.

TESTIMONY OF THE HONORABLE CAROLYN B. MALONEY, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. Thank you so much, Chairman Scott and Ranking 
Member Gohmert, for holding this hearing on a critically 
important issue, the DNA rape kit backlog.
    Rape kits, if they are processed in a timely manner, can 
protect innocent victims and get rapists off the streets.
    I have been working on this issue since 2001 when I 
organized a hearing on the use of DNA to both convict and 
exonerate. And coming out of that hearing was the Debbie Smith 
Act, a block grant program funding SANE nurses. Over $550 
million has gone into this program to process the backlog; $150 
million is in this year's budget. And it goes into the CODIS, 
the centralized national database of the FBI.
    Although many localities have received these moneys, not 
all of them are processing it. And I wanted to say one brief 
New York story that tells why it is so important.
    A woman named Catherine Ham was raped in New York City in 
roughly 1975. Her rapist was apprehended by the police. They 
thought they had a cut-and-dry case. She went to court. They 
turned her into someone mad at her pimp. He got free. Thirty 
years later, because of this bill and the attention of the New 
York City Police Department and prosecutors, they processed her 
clothing, they made a connection. The man was now in jail, and 
he had raped 27 additional women.
    Most rapists are serial. And each rape kit that is not 
processed represents a life of a victim and the possibility 
that this criminal will rape many more. So, by just processing 
that kit and making the connection, you not only relieve the 
victim's fear of an additional assault from the rapist, but 
also prevent rape with many other people.
    The problem is that there is no accountability. And the 
bill that I have put forward, the ``Survivors of Sexual Assault 
Act,'' H.R. 4114, will build more accountability into the 
system. It will require a reporting system so that we can 
really track what the backlog is. No one really knows what it 
is now.
    And it will require the jurisdictions applying for Debbie 
Smith funds to send all rape kits to crime labs and implement 
plans to have the rape kit backlogs handled in a 2-year period. 
It also provides incentives, monetary incentives, for 
jurisdictions to reduce their rape kit backlog and promptly 
process them.
    And it requires the States to be responsible for the full 
up-front cost of rape kit examinations. Victims should not have 
to pay for their rape kits.
    And it also, very importantly, funds the sexual assault 
nurse examiners, the so-called SANE nurses. The police tell me 
that if they have a rape kit that is processed by a SANE nurse, 
they can always get a conviction. It is important to have this 
professional attention to it.
    My bill has a companion bill, S. 2736, introduced by 
Franken and Grassley, and we hope that we will be able to pass 
it this year. And this bill aims to help build that capacity, 
tackling only rape kits and, importantly, requiring the 
reporting and the backlog information.
    I want to thank the Subcommittee for inviting me to 
testify. The Debbie Smith Act has helped save lives. And I just 
want to conclude by saying that DNA evidence from rape cases 
not only helps police identify rapists in existing unsolved 
cases, but also prevents future assaults and spares potential 
new victims by bringing a rapist to justice early in their 
criminal careers. And, undeniably, prosecuting rapists early on 
is the single most effective rape prevention tool that we have 
available.
    The Debbie Smith bill has been called by many advocates as 
the most effective anti-rape legislation ever enacted into law. 
The bill that we have authored this year would make that bill 
stronger, would bring accountability into the system, and put 
the rapists behind bars, where they belong. It is really 
unconscionable that so many hundreds of thousands of rape kits 
are on the shelves, unprocessed. Each one represents a life 
destroyed and the ability to prevent future rapes.
    So I just want to thank all of you for being here today, 
and I hope we will be able to move this bill forward. Thank 
you.
    [The prepared statement of Mrs. Maloney follows:]
        Prepared Statement of the Honorable Carolyn B. Maloney, 
        a Representative in Congress from the State of New York
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Weiner?

TESTIMONY OF THE HONORABLE ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Thank you, Chairman Scott and Ranking Member 
Gohmert, for the opportunity to testify on the importance of 
reducing the rape kit backlog and the progress that has been 
made on this issue.
    I look forward to hearing the testimony of the witnesses, 
including that of Valerie Neumann, who will share her very 
powerful story, and Mariska Hargitay at the Joyful Heart 
Foundation, who has used her considerable fame to bring light 
to this problem and also to try to find solutions.
    I have been an advocate for promptly testing DNA kits for 
some time. The significance of testing all rape kits can't be 
overstated. Every untested rape kit is a victim waiting for 
justice, a sexual predator unpunished, and perhaps more crimes 
waiting to happen.
    In 1999, in my first year in Congress, as a Member of this 
Committee, I authored the ``DNA Backlog Elimination Act'' that 
required the Department of Justice to establish a program to 
assist State and local governments with their DNA backlog.
    In 2000, I worked with our former colleague Bill McCollum 
to pass the ``DNA Analysis Backlog Elimination Act of 2000,'' 
which provided Federal funding to State and local governments 
to test DNA samples. That was the first time that Federal 
resources had been brought to bear on that problem.
    Then, in 2004, my ``DNA Sexual Assault Justice Act'' was 
included in part of the ``Justice for All Act.'' This 
legislation did a number of things, including increasing grants 
to State and local governments for DNA testing, requiring State 
and local government crime labs to undergo accreditation for 
the first time and auditing every 2 years, and also providing 
grants for law enforcement and medical personnel to be trained 
on the collection and preservation of DNA.
    Since then, I was honored to work with my colleagues to 
help pass the ``Debbie Smith Reauthorization Act of 2008.'' And 
I want to take a moment to highlight the work of Carolyn 
Maloney on that issue. As a Member of this Judiciary Committee, 
she never let me forget for a moment how important this issue 
was. That law would not be a law were it not for Carolyn 
Maloney, and no one should forget that.
    Since 1999, there has been considerable progress across the 
country in understanding the power of DNA testing. Simply put, 
DNA evidence breathes life into old cases, solving hundreds in 
New York City alone, and can be a lifesaver for the wrongly 
accused. Testing rape kits provides much-needed information and 
peace of mind for rape victims, brings rapists to justice, and 
frees the wrongly convicted.
    And I want to stress that final point. You know, this is 
seen by many, myself included, as a very important criminal 
justice tool to get the people who did crimes in jail. But it 
is also a tool to make sure that we don't make mistakes. And 
more and more often, we read in newspapers that DNA evidence 
has been used to free the wrongly convicted. No matter what 
lens you look at this issue through, whether it is a criminal 
justice issue or a civil rights issue or a civil justice issue, 
DNA rape kit testing is very important.
    In addition to requiring all convicted felons to provide 
DNA samples, during our consideration of the Debbie Smith Act I 
testified about a woman being raped in 1998. For 7 years, that 
case went unsolved until the State of Pennsylvania passed its 
own law requiring anyone convicted of a felony to submit their 
DNA to the State database. It turns out there was a DNA hit 
from a man who had been convicted of forgery. This is just one 
of a number of cases where DNA is bringing criminals to justice 
for previously unsolved cold cases.
    My hometown of New York City has been one of the success 
stories. New York City, at one time, had a backlog of 17,000 
rape kits. However, through a significant infusion of funding 
and a commitment to justice by the Federal Government and local 
leaders, New York City processed all of these rape kits, tested 
each rape kit, and now does not have a backlog, Mr. Conyers.
    The result of this has been at least 2,000 cold hits on 
rape kits, and the arrest rate for reported cases of rape in 
New York City rose from 40 percent to 70 percent, according to 
Human Rights Watch. Additionally, New York City tests kits 
quickly. In fact, the average for all DNA cases in New York 
City's Office of Medical Examiners is 75 days. Even better is 
the average turnaround for sexual assault cases, which stands 
at 40 days.
    However, there have been longstanding challenges in other 
parts of the country. A disturbing trend has been the 
difficulty for labs, the Department of Justice, and 
policymakers to get a true picture of how many untested rape 
kits are sitting in police storage facilities. Understandably, 
local law enforcement has been reluctant to say, ``We've got 
thousands of kits sitting around,'' so they are simply not 
sharing the information.
    In 2003, a National Institute of Justice study found that 
there were over 542,000 criminal cases with possible biological 
evidence sitting in local police storage facilities or forensic 
labs. Additionally, this study found that the average 
turnaround in the United States is--get this--between 24 and 30 
weeks, compared to 30 days in England.
    More troubling was that over 50 percent of local law 
enforcement agencies said that forensic DNA was not considered 
a tool for criminal investigations. Let me say that again: More 
than 50 percent of enforcement agencies said that forensic DNA 
was not considered a tool for criminal investigations.
    A similar study published last year found that State and 
local law enforcement agencies did not submit thousands of 
unsolved homicide cases, 3,975, and rape cases, 27,595, to a 
criminal laboratory at all. Over 12,000, or 40 percent, of 
these unsolved homicides and rape cases contained DNA evidence. 
Even more troubling was that, despite the great awareness of 
the power of DNA, nearly half the law enforcement officials in 
the study, as I said, said they did not even use it as evidence 
in a case.
    Lastly, approximately 60 percent of enforcement agencies 
reported not having a computerized information system in place 
capable of tracking forensic evidence. That means basically 
these were boxes, rape kits on walls, with pads of paper, that 
even if you had a sense that someone might have had evidence 
that could solve another crime, they were unable to match those 
two things together.
    Finally, for these reasons, I have introduced the ``DNA 
Expansion Improvement Act of 2009.'' This legislation would 
increase funding to State and local governments for testing 
rape kits and DNA samples; establish two new $50 million grant 
programs, one for public labs to purchase or upgrade technology 
and a second for testing of property crimes.
    Additionally, the bill would require that all States 
collect DNA from felons in prison and for all felony crimes in 
the future or lose the opportunity for funding. This is 
critical for States that still do not require all felons to 
submit their DNA. And those two States that remain are Idaho 
and New Hampshire.
    As the Committee moves forward on this important issue, I 
believe one of the most important aspects we need to focus on 
is to get a true picture of the national backlog. And I hope 
Dr. Hassell with the FBI will be able to shed some light on 
this subject. Recent studies that I mentioned vary greatly, and 
we need to ensure that, no matter in what city or State a crime 
is committed, the rape kits are tested in a timely manner and 
rapist are taken off the streets.
    And I thank you, Ranking Member Gohmert and Chairman Scott.
    [The prepared statement of Mr. Weiner follows:]
        Prepared Statement of the Honorable Anthony D. Weiner, 
        a Representative in Congress from the State of New York
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Schiff?

TESTIMONY OF THE HONORABLE ADAM B. SCHIFF, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Mr. Chairman, Ranking Member, Mr. Chairman, and 
Members of the Committee, thank you for calling this important 
hearing and inviting me to participate.
    As my colleague Mr. Weiner pointed out, there is no 
reliable accounting for the number of sexual assault kits that 
are backlogged around the country or even a consensus as to 
what constitutes a backlogged kit. But we do know that sexual 
assault kits are sitting on shelves for months and years and 
that crime labs around the Nation are struggling to do more 
with less. And we know that, as a result, rapists are walking 
the streets and justice for their victims is being denied.
    I am sorry to say that Los Angeles knows only too well 
about rape kit backlogs. In 2008, a full accounting of rape 
kits sitting in storage for more than 30 days revealed that the 
backlog stood at over 13,000 kits between the city and county 
labs. A breakdown of that backlog revealed that over 200 kits 
in the county alone were older than 10 years and, therefore, 
beyond the statute of limitations for a rape case even if a 
positive hit was discovered.
    Los Angeles is far from alone. Many other cities have these 
backlogs, whether their citizens know it or not.
    When I started working to address the Los Angeles backlog, 
I found that it was not as simple as putting more money into 
the crime lab. New forensic scientists have to be hired, 
trained, and then they have to have the lab space and resources 
to do their jobs. The process from hiring and training a 
scientist to the point where he or she can process a rape kit 
can take years to accomplish.
    To make an immediate dent in the backlog, the city and 
county both employed the capacity of private labs that had the 
manpower and expertise to process these kits immediately. Both 
the city and county have outsourced thousands of kits. Were it 
not for that option, closing the backlog would have taken years 
longer, if it was possible at all.
    There is a simple step that could immediately take action 
to speed the processing of sexual assault evidence and improve 
the efficiency of public labs. The National DNA Index System 
rules govern what can be uploaded into the national database. 
The rules require that any crime scene evidence outsourced by a 
private lab must undergo a technical review by the public lab, 
which is a manual rechecking of the private lab's work.
    The technical review of each kit is a time-intensive 
process. In fact, the Federal Government assisted the city of 
Los Angeles with half a million dollars this year that will go 
entirely toward paying the overtime for forensic scientists who 
are conducting the technical reviews. For several years now, I 
have been calling on the FBI to evaluate this rule in light of 
the evidence that it is an unnecessary and burdensome 
requirement on overstretched public labs.
    There have been some suggestions that the call to look at 
the technical review standards are being driven by private 
labs. It is simply not the case. If you don't believe me, go to 
Los Angeles and talk to Mayor Villaraigosa or Chief Charlie 
Beck or Sheriff Lee Baca and ask them about the impact of 
technical review on their budgets and the turnaround time for 
backlogged rape kits.
    Let me be clear: This is not about private labs versus 
public labs. I come from a law enforcement background as a 
former Federal prosecutor and have no desire to remove law 
enforcement functions from public crime labs. I strongly 
support building the capacity and efficiency of public labs so 
they can quickly process DNA. I am opposed to opening up CODIS 
to any private entity, but an overbroad and cumbersome 
technical review requirement is hampering law enforcement's 
ability to take dangerous people off the street.
    I am pleased that, in March of this year, the FBI announced 
that they were looking at a technical review rule change and 
studying possible alterations. There are a range of options on 
the table for the 100 percent manual review that preserve the 
integrity of CODIS. Among these are expert systems that can 
automate the technical review process. We can also require a 
high degree of accreditation for private labs and require them 
to undergo regular audits.
    I believe, though, the best option would be to require the 
technical review after a hit in CODIS. What we should not do is 
continue to hamstring public labs that need immediate capacity 
or law enforcement that needs to know whether a profile that 
has been gathered from a rape kit matches a suspect already in 
CODIS.
    As eager as I am to hear more about the intention of the 
FBI and the NDIS board to modify the existing rules, I am 
concerned that the timing will do little to relieve the 
immediate problem faced by Los Angeles. The LAPD has over 2,000 
evidence kits that have been returned from the private labs 
that are still waiting to be uploaded into CODIS because of the 
several hours it takes the lab technician to perform the 
technical review. This is despite the fact that, in the 
thousands of kits in which the technical review has already 
been performed, they haven't located a single error that 
impacted the integrity of the database or would have resulted 
in a false match.
    For that reason, last week I sent a letter to FBI Director 
Robert Mueller and Attorney General Holder asking them to 
consider immediate steps to ease the technical review burden on 
the LAPD. The FBI is considering options for pilot programs to 
test the efficacy of alternatives to the 100 percent manual 
technical review requirement, and I believe that L.A. Is a 
perfect venue for a pilot project. Nine other members of the 
Los Angeles congressional delegation have joined me in writing. 
In requesting this pilot, we believe that Los Angeles can prove 
the concept of a new technical review regime while speeding the 
day that the L.A. Backlog is truly closed.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Schiff. In closing, Mr. Chairman, if we are able to 
accelerate the uploading of these samples that have already 
been reviewed in Los Angeles, these thousands of kits, 
statistically we know we will take people off the street that, 
if we wait, may go on to commit other rapes and murders. That 
is the cost of delay.
    And I want to thank you again for holding this hearing. I 
hope it is the beginning of powerful action to modify the 
technical review requirement and accelerate the processing of 
DNA rape kits.
    And I yield back.
    [The prepared statement of Mr. Schiff follows:]
          Prepared Statement of the Honorable Adam B. Schiff, 
       a Representative in Congress from the State of California
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Before we get to Mr. Nadler, I just want to recognize the 
gentleman from Virginia, Mr. Goodlatte, and the gentleman from 
Illinois, Mr. Quigley, who are with us today.
    Mr. Nadler?

TESTIMONY OF THE HONORABLE JERROLD NADLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Nadler. Thank you, Mr. Chairman.
    I thank you, Mr. Chairman, for holding this hearing. And 
good morning, Chairman Scott. I see now Ranking Member 
Goodlatte and Mr. Chairman Conyers and fellow Members of the 
Subcommittee. Thank you will for allowing me to testify today 
on this critical issue of the continuing rape kit backlog.
    248,288 is the number of rapes and sexual assaults that 
occurred in 2007, as reported by the Department of Justice. 
That is more than 679 rapes and sexual assaults every day; 28 
every hour of every day. That is an unconscionable number of 
people, almost all of them women and girls, victimized in the 
United States on a daily basis in the most horrible way.
    Rape and sexual assault are horrible crimes which can 
destroy the lives of the victims and their families. They are 
terrors which no one should have suffer and which it is our 
duty to make sure that as few as possible suffer from.
    Modern science has thankfully provided a way for us to 
combat this scourge: DNA testing. By testing the DNA evidence 
left at the scene of a rape or sexual assault, we can with near 
certainty identify the perpetrator or perpetrators involved. 
Such evidence makes it much more likely these individuals will 
be captured and punished. This, in turn, allows victims to 
obtain justice and society to take violent criminals off the 
streets. It also allows us definitively to exonerate the often 
falsely accused innocent.
    Every part of this sequence is important. Tragically, 
however, we continue to fail at a key step in the process: the 
collection and testing of evidence. Compounding the terrible 
crime itself is the crime that tens of thousands of rape kits 
which hold the key to justice and to prevention are not being 
analyzed in a timely manner. That there is any rape kit backlog 
at all is simply wrong and intolerable, and that we have known 
about it for as long as we have and have not done that much 
about it is also wrong and intolerable.
    For many years, this Committee has worked to end the rape 
kit backlog. Back in 2002, I introduced the ``Rape Kit DNA 
Analysis Backlog Elimination Act,'' which authorized $250 
million to help police departments finance testing rape kits, 
thereby reducing their backlog. Working with my colleagues and 
with outside organizations, we kept up the pressure to deal 
with the problem.
    Finally, in 2004, I was an original cosponsor of the 
``Justice for All Act,'' introduced by the then-chairman of 
this Committee, Representative Jim Sensenbrenner. That bill 
included many of the provisions of my 2002 bill and of 
Congressman Weiner's earlier bill.
    Title II of that bill, known as the Debbie Smith Act, which 
was Congresswoman Maloney's title, authorized hundreds of 
millions of dollars for DNA testing and strengthened the 
ability of State and local law enforcement specifically to test 
rape kits.
    Last year, the Appropriations Committee proposed a fiscal 
year 2010 appropriation for this program of $146 million, less 
than authorized and less even than the prior year, for fiscal 
year 2010. This was unacceptable. The lives and wellbeing of 
too many women across the country was at stake. So I moved an 
amendment to the budget last year, joined in that effort by 
Representatives Maloney and Mike Michaud of Maine, to increase 
funding to the fully authorized amount. The amendment was 
adopted by a vote of 411 to 1, which shows the feeling in this 
House on this subject when properly mobilized. So we got the 
full funding.
    Despite this, the rape kit backlog continues to be a major 
problem, and progress is extremely uneven across the country. 
As already mentioned, we don't even know a lot of the data. For 
example, we know that there remain 5,000 untested rape kits in 
Illinois and 4,000 in the city of Houston alone. At the same 
time, New York City has eliminated its backlog, as Congressman 
Weiner mentioned. Because of this unevenness and the lack even 
of adequate data at to the scope of the problem nationwide and 
as to the nature of the problem in many areas, we really need a 
nationwide solution.
    I am grateful the Committee is holding this hearing on this 
continuing crisis, because a crisis it is. The Committee has 
assembled an excellent group of witnesses. I wish to thank my 
colleagues on this panel for their hard work on this issue.
    I look forward to the testimony of the witnesses on the 
next panel, in particular, to help us determine what changes to 
the current law are necessary--there are a number of bills 
already in; there may be more--and how much more in the way of 
resources we need, as well as changes in law, to ends the rape 
kit backlog once and for all and to bring finality and justice 
to this issue.
    Thank you again for allowing me the opportunity to testify. 
And I expect to go to the other side of the table soon to 
listen to the testimony of our next panel. I thank you again.
    [The prepared statement of Mr. Nadler follows:]
          Prepared Statement of the Honorable Jerrold Nadler, 
        a Representative in Congress from the State of New York
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    I don't have questions; the Ranking Member doesn't have 
questions. I recognize the Chairman of the full Committee.
    Mr. Conyers. Mr. Chairman, I just wanted to thank these 
four Members of Congress for their incredible tenacity and 
understanding and evaluation of the problem.
    I think, with Eric Holder over there at DOJ, we are going 
to get some movement on this in the 111th Congress. And I thank 
you for holding the hearing.
    Mr. Scott. Thank you.
    And I thank our witnesses.
    If our next panel will come forward?
    As the next panel is coming forward, I will begin the 
introductions.
    Our first witness is Kym Worthy, the Wayne County, 
Michigan, prosecutor. She began her legal career at the Wayne 
County Prosecutor's Office and, in 1994, was elected to the 
Detroit Recorder's Court. Her career came full circle in 2004 
when she returned to the Prosecutor's Office as the Wayne 
County prosecutor, the first African American and the first 
female to hold that position.
    Our second witness is Valerie Neumann. She was sexually 
assaulted by a man she met while celebrating her 21st birthday. 
Over the next year, she followed up with the police to see if 
her rape kit had been tested and later found out that her rape 
kit had not been sent to the crime lab for testing. Eventually, 
the prosecutor in her case declined to prosecute, and her rape 
kit was never tested. Valerie is currently in school in 
Wilmington College in Cincinnati, Ohio, working on her master's 
degree in business management.
    Our third witness is Mariska Hargitay. She founded the 
Joyful Heart Foundation after hearing stories of sexual assault 
survivors who contacted her about their cases after seeing her 
in her role as Detective Olivia Benson in ``Law and Order: 
Special Victims Unit.'' The foundation's mission is to heal and 
educate and empower survivors of sexual assault, domestic 
violence, and child abuse and to shed light on the darkness 
that surrounds these issues. And, as Representative Weiner 
indicated, she is using her considerable fame and a lot of time 
to help victims of sexual assault.
    Our next witness is Christian Hassell, assistant director 
of the FBI Lab Division. He came to the FBI from Oklahoma State 
University Multispectral Laboratories, where he led research, 
development, testing, and evaluation. He earned his Bachelor of 
Science degree in chemistry from Brigham Young University and 
Ph.D. in analytical chemistry from the University of Texas at 
Austin.
    Our fifth witness is Jeffrey Boschwitz, vice president of 
Orchid Cellmark, Incorporated. Orchid Cellmark invented some of 
the technology used for forensic DNA testing today and is one 
of the largest private labs providing forensic human identity 
testing. He earned a Ph.D. In immunology from Cornell and 
completed his post-doctoral work at Stanford.
    And today's last witness is Peter Marone, director of the 
Virginia Department of Forensic Science. He began his forensic 
career at the Allegheny County Crime Lab in Pittsburgh until he 
accepted a position at the Virginia Bureau of Forensic Science. 
For many years, the Virginia Bureau has been in the forefront 
of DNA testing. The bureau was responsible for some of the 
earliest DNA convictions and is, in fact, an inspiration of 
Patricia Cornwell's book series featuring Dr. Kay Scarpetta and 
her detective sidekick, Pete Marino. In 2007, Mr. Marone was 
appointed director of the Virginia Department of Forensic 
Science. He has a bachelor of science and a master of science 
in chemistry from the University of Pittsburgh.
    Now, each of our witnesses' written statements will be 
entered into the record in its entirety, and I ask each witness 
to summarize your testimony in 5 minutes or less. And to help 
you stay within that time, there is a timing device at the 
table that will begin with green, turn orange when there is 1 
minute remaining and red when the 5 minutes have expired.
    We will begin with Ms. Worthy.

               TESTIMONY OF KYM L. WORTHY, ESQ., 
              WAYNE COUNTY PROSECUTOR, DETROIT, MI

    Ms. Worthy. Thank you. Thank you to all of you for having 
me in to talk about this issue.
    In 2008, there were almost 15,000 murders in the United 
States, according to FBI statistics. Contrast that with, in 
September of 2009, last year, 12,000 untested rape kits were 
discovered in the Detroit Police Department property room 
annex. We now believe the real number is 15,000 and climbing. 
This is one city in one county in one State.
    This represents 15,000 rape victims whose lives are now 
sitting on a shelf, abandoned, forgotten, and ignored. How old 
some of these tests are I do not know. Victims who thought 
their cases were being investigated and paid attention to.
    I want to just take you through very briefly, although I 
cannot describe the horror, of what a victim goes through in 
going through a rape kit test. They can last for hours and 
hours. And it is done under an ultraviolet light, and every 
crack and crevice of their bodies are literally examined, 
prodded, poked. Every orifice is scrutinized for semen, hair, 
fibers, anything that can lead to evidence and a prosecution. 
Again, I cannot adequately describe how horrific this exam is.
    Then, to have all of this packaged up and transferred to a 
local police department, only to sit on the shelf for years. We 
believe that some of these rape kits in the city of Detroit are 
over 10 years old. So they are victimized again.
    Rape cases are among the hardest to prosecute, short only 
probably of child molesting cases. As you have indicated, I am 
the elected prosecutor for the county of Wayne. Some of your 
jurisdictions call us district attorneys. Wayne County is in 
Michigan, the largest county in the State. I am responsible for 
43 cities, townships, and municipalities. Detroit, obviously, 
is the largest city, and Wayne County is the 13th largest 
county in the Nation.
    As you stated, I was a previous assistant prosecutor, where 
I personally prosecuted thousands and thousands of cases. I was 
also a sitting judge on the circuit court, where I personally 
presided over 5,000 cases. My office, the Wayne County 
Prosecutor's Office, prosecutes 80,000 cases a year; 30,000 of 
those are felonies. And we do it with only 150 assistant 
prosecuting attorneys.
    And I am saying this for a reason. Three thousand cases, on 
average, of rape are reported in Wayne County. And it is 
important to note that these are the people that come forward 
and report it. As we know, in this crime, most people do not 
report it. Approximately 2,500 of those are in the city of 
Detroit, and 500 of those are in my other 42 cities.
    Now, this is astounding. That means that our closure rate 
is under 30 percent. Over 70 percent of the rapists in Wayne 
County go unprosecuted and they do not get arrested. And that 
means those rapists are free to rape again. Fifteen thousand 
untested rape kits means 15,000 cases that are not in CODIS, 
the DNA database, as you know. And can you imagine if those 
cases were in the database? Our closure rate wouldn't be under 
30 percent.
    I can give you case after case after case and much 
anecdotal evidence about cases that we have found that were not 
in CODIS before. I want to give you two quick examples.
    One is we had an East side rapist in the city of Detroit 
that had raped nine women. When finally we got the hit, we 
found out that this was a person that had raped four or five 
other women previous to that. And if those rape kits had been 
tested, the nine following women would not have been raped.
    We have one more case I want to fell you about because this 
involved a child. We had a CODIS hit that was not put in 
properly. The rape kit wasn't done until it was found later. We 
got the CODIS hit, and we found out there had been a woman that 
had been raped previous under that test. And there were two 13-
year-old girls that were then raped after that that would not 
have been raped if that rape kit had been properly processed.
    Detroit's problem is a little unique. It is not really a 
backlog; it is really even worse. These are cases that were 
just thrown into an annex property room, in a corner, some in 
barrels, some out, some not properly preserved, in a corner 
doing nothing. A backlog presumes that you are actually working 
on the case and you are just behind. But what we had in the 
city of Detroit is, on these boxes and barrels, they were not 
even touched and tested.
    Let me tell you why that is problem. As I indicated, I was 
an assistant prosecutor for almost 12 years and on the bench 
for 9, the trial court, the circuit court in Wayne County. I am 
used to that work; I am used to the pace. We do 80,000 a year. 
Our judges are constantly telling us to push, push, push, get 
cases done.
    And that means oftentimes when I was an assistant I had to 
prosecute many rape cases without the rape kit. We were told by 
the police department that often they were lost, they couldn't 
find them, they were denigrated--all kinds of things. And now 
we find out where they are and where they were after all these 
years.
    So the horror of that is, though, as a prosecutor, I could 
possibly have prosecuted people that the rape kit would clear 
them and exonerate them. And, as a prosecutor, one person 
wrongfully convicted is one too many. So it is not only that we 
have victims that are being ignored and their rape kits aren't 
being tested, we could possibly have defendants serving long 
periods of time that could be exonerated by the rape kit.
    When you are a busy urban courtroom, I cannot tell you the 
madness of trying to get these cases done. And, again, you have 
to rush everything through, and certainly if we don't have all 
the available evidence, then sometimes justice is not done. 
That is important because prosecutors have dual responsibility. 
Our role is not only to prosecute zealously, but it is also to 
protect due process rights of each and every defendant.
    Now, I don't know how much time I have, so I wouldn't 
detail the audit process that we have to go through right now. 
But we have picked 400 cases. This has been done through 
Michigan State University, who has given us a statistical 
analysis of how many cases we have to look at and test to 
determine what we have in this 15,000. We don't know how many 
defendants are dead. We don't know how many victims are dead. 
We don't know how much the evidence has been compromised. We 
don't know how many cases want to go forward. And that is what 
this audit is going to tell us, and I will send you some 
written evidence about that.
    This bill is extremely important. What I am most interested 
in as a prosecutor, besides what I have described, is 
accountability. The police departments in my area and across 
this country have gotten millions and millions of dollars' 
worth of stimulus funds and other funds as well. And cops on 
the street are very important, to be sure, especially in a city 
like I have to deal with, where we have monumental issues 
besides just our crime problem.
    But, at some point in time, police officers have to be told 
that they have to be accountable for these rape kits, as well, 
a problem that they caused. And some of these funds need to be 
used, as well, to straighten out the problem in our 
overburdened crime lab and getting these rape kits tested. We 
are told that, to test these 15,000 rape kits, it is going to 
cost us between $40 million and $50 million.
    So, again, just to summarize, the most significant items of 
this bill: the backlog reduction; prompt, new universal 
testing; backlog measurement; and, certainly, rape kit billing 
fix. No victim should ever have to pay for their rape kit to be 
done.
    I thank you so much.
                               __________

    Mr. Scott. Thank you.
    Ms. Neumann?

                 TESTIMONY OF VALERIE NEUMANN, 
            SEXUAL ASSAULT SURVIVOR, CINCINNATI, OH

    Ms. Neumann. Good morning, and thank you for giving me the 
opportunity to speak in front of you today. It means a lot to 
me that you have invited me to tell my story.
    I would like to start by telling you a little bit about 
myself. My name is Valerie Neumann. I live in Cincinnati, Ohio. 
I am currently getting my bachelor's degree in business 
management, and I also work full-time for Procter & Gamble.
    This past December was my birthday and the 3-year 
anniversary of when I was raped. For my birthday in 2006, a 
friend of mine took me out to dinner. After dinner, she asked 
if I wanted to join her boyfriend and his friends, most of 
which I had never met, for drinks at a bar nearby.
    When we arrived, one particular man, an acquaintance of my 
coworker's boyfriend, immediately started buying me drinks. The 
drinks made me very sick. The nurse at the hospital would later 
describe what I began to feel similar to what a date-rape drug 
feels like. And so my friend took me to her home. Some people 
from the bar decided to go over to her house, too.
    When we got there, my friend helped me upstairs and made me 
comfortable in the bathroom. Later that evening, my friend was 
yelling at her boyfriend to make sure all the guests were out 
of the house before she went to bed. The two of them went to 
bed.
    Everyone but the man who bought me drinks at the bar had 
left. He had other plans. At some point later that night, he 
came into the bathroom and laid down behind me. He kept asking 
me if I wanted to go down to the couch with him. I was so sick, 
but I was able to tell him ``no.'' When I refused, he tried 
sliding his hands down my pants and up my shirt. I remember 
telling him over and over again, ``No, no, I don't feel good.''
    I thought I had eventually gotten him to leave me alone. I 
was wrong. When I woke up the next morning, my pants and 
underwear were around my ankles and my bra was unfastened. I 
knew something was very wrong, but at the time I was so sick, 
confused, and scared that the pieces weren't coming together.
    It wasn't until I got home and undressed to take a shower 
that the reality really sank in. I found a large friction burn 
on the back of my neck, bruises of finger indentations around 
each of my wrists, and scratches on my back.
    I went to show a good friend of mine the marks and asked 
her opinion. She told me I needed to go to the hospital. I 
realize it is silly now, but at the time I just wanted to 
forget anything that happened that night. I was scared to face 
reality. I had just started a great job. I had plans to go back 
to school. I had so many things to look forward to. The last 
thing I needed was this.
    Although I wanted to pretend nothing had happened, I knew 
what I needed to do. I called my parents, and they met me 
outside of our house. I told them that I thought I had been 
raped. We immediately headed for the hospital.
    The police officers and social workers at the hospital said 
I needed to have a rape kit taken. I gave a statement to the 
police officers while waiting for a SANE nurse to arrive at 
hospital.
    The collection of a rape kit is a 4- to 6-hour process of 
pulling hairs, swabbing, and taking pictures. It took longer 
than I expected, and it was really hard to go through. My only 
consolation was that the exam could be used to put my rapist 
behind bars.
    The SANE nurse put in her report that she found evidence of 
forced sexual penetration. I had lots of redness and a tear 
around my vaginal area.
    The police officers took my statement at the hospital and 
asked me about the person who had raped me. I didn't know his 
name, only his nickname. But when I gave them a physical 
description of him, they told me and my father that they knew 
the guy I was talking about. He had done this sort of thing 
before. The police officers called their detective, and he went 
to my friend's house that night with a warrant to collect 
evidence.
    The next morning, I had to go to the police station to give 
an official statement to the detective. Unfortunately, after I 
gave my statement, I didn't hear from the police again for a 
very long time. I had to fight to get any information. I 
started calling every other day, then once a week, every other 
week, once a month, et cetera. Many phone calls were never 
returned. It was exhausting to be my own advocate.
    It took a year for the detective to send my case to the 
prosecuting attorney's office. And then 6 months later, the 
prosecuting attorney told me they wouldn't be trying my case 
because they decided it was unwinnable given the fact I had 
been drinking the night of my rape and it was an acquaintance 
rape. I tried to explain that I had not even known the man's 
name until the police told it to me, but the prosecutor had 
seemed to make up his mind: Case closed.
    What was perhaps the hardest was that my case was closed 
without my rape kit being tested. Right after I went to the 
police, the suspect had gotten a lawyer. He issued a statement 
through his lawyer that he had no sexual contact with me that 
night.
    The same nurse told me she had found semen in numerous 
places on my body. If they had tested my rape kit, the semen 
they found could have matched back to the suspect. It would 
have validated my claim that I was raped and discredited his 
claim that he had no contact with me at all.
    When I later called the prosecutor's office to ask why my 
rape kit hadn't been tested, a representative from the 
Kentucky's prosecuting attorney's office left a voicemail on my 
cell phone stating they didn't have the funds to test a kit in 
a case like mine. It has now been 3 years, 5 months, and 4 days 
since the night I was raped, and my kit remains untested.
    In recent months, with the help of news networks and 
nonprofit organizations, such as CBS Evening News, RAINN, and 
Human Rights Watch, a spotlight has been put on the rape kit 
backlog. The fact is, many States have no idea how many 
untested rape kits they have in their procession.
    Testing a rape kit is so important because it can identify 
an assailant; confirm a suspect's contact with a victim; 
corroborate a victim's account of the crime, especially useful 
on acquaintance rapes; and connect apparently unrelated crimes 
and exonerate innocent suspects.
    A law enforcement decision to test a rape kit is an 
indication of commitment to build a strong investigation. 
National studies have shown that cases in which a rape kit was 
collected, tested, and found to contain DNA evidence are more 
likely to move forward in the criminal justice system. 
Conversely, untested rape kits typically represent lost justice 
for victims, and it often means a rape investigation was cut 
short before the offender could be brought to justice.
    The unfortunate truth is our justice system doesn't work as 
smoothly as it appears on TV shows like ``CSI.'' I used to 
believe in our justice system, but after my experience, I have 
lost faith. I can honestly say that if I were raped again, I 
don't know that I would choose to go to the hospital and be put 
through a rape kit again. We ask so much of victims right after 
they have been raped but don't follow through in the end.
    The hearing on the rape kit backlog means so much to me for 
many different reasons. I believe we need Federal leadership on 
the rape kit backlog, and I am so inspired that you are here to 
provide that leadership.
    I personally have made peace that my assailant will never 
be brought to justice, as the prosecuting attorney has made it 
very clear they will not go back and test my rape kit. I am now 
turning my energy toward advocating for every rape victim whose 
kit remains sitting on a shelf untested.
    This has been a liberating experience for me. I have been 
able to confront my fears about speaking out as a rape victim 
through the opportunities I have been given as a RAINN Speakers 
Bureau member and have grown stronger in the process. Although 
I feel justice wasn't served for me, I am comforted by the fact 
that I am part of making change for the future. It is my hope 
that rape victims won't have to experience the frustrations and 
disappointments that victims like myself and so many others 
have. Rape is traumatic enough; the rape kit exam and stuff 
thereafter shouldn't add to that trauma.
    Thank you for your time today. I am so grateful for you 
listening to my sorry. I want to especially thank Congresswoman 
Jackson Lee for submitting a letter to Chairman Scott on my 
behalf requesting the hearing and to Chairman Scott for asking 
me to testify.
    [The prepared statement of Ms. Neumann follows:]
                 Prepared Statement of Valerie Neumann
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Ms. Hargitay?

                TESTIMONY OF MARISKA HARGITAY, 
             JOYFUL HEART FOUNDATION, NEW YORK, NY

    Ms. Hargitay. Chairman Conyers, Chairman Scott, Ranking 
Member Goodlatte, and distinguished Members of the 
Subcommittee, you have honored me deeply by inviting me to 
stand with you and among you in our common cause.
    I am especially honored to be here in the year of the 15th 
anniversary of the ``Violence Against Women Act.'' I honor the 
stand you have taken, because you have the power to help 
survivors heal and reclaim their lives.
    For the past 11 years, I have played a sex crimes detective 
on ``Law and Order: Special Victims Unit.'' The show is indeed 
fiction, but the fiction is based on horrific facts--like the 
fact that, in the time it will take us to conduct this hearing 
this morning, 60 individuals in the United States will be 
sexually assaulted.
    But it wasn't only the statistics that pressed the tragedy 
and the pervasiveness of these acts into my consciousness. It 
was also the letters and e-mails I began receiving from victims 
of abuse, sharing their stories, and many for the very first 
time. I remember--I am sorry. I remember my breath going out of 
me for the very first time when the first letter came, and I 
have gotten thousands like it since.
    I responded by starting the Joyful Heart Foundation in 
2004. Our mission is to heal, educate, and empower survivors of 
sexual assault, domestic violence, and child abuse and to shed 
light into the darkness that surrounds these issues. I am proud 
to be part of this movement that will change the way we respond 
to these epidemics.
    I have been invited here today to talk to you about the 
crucial piece of that response, eliminating the backlog of 
untested kits in the United States. While I am not an expert, I 
am indeed an advocate in the literal sense of the word, one who 
calls out to you, on behalf of the thousands of survivors whose 
voices, courage, and hope for justice I am honored to bring 
with me into this room.
    Every year in the United States, more than 200,000 
individuals take the courageous step of reporting their rape to 
police. And because of what those individuals have suffered, 
their bodies are crime scenes--living, breathing, feeling crime 
scenes--from which we collect a rape kit.
    Experts estimate that there are hundreds of thousands--
hundreds of thousands--of untested rape kits in police and 
crime lab storage throughout the country, as Ms. Worthy said.
    The benefit of testing rape kits goes beyond introducing 
the clarity of DNA evidence in the arena of rape and sexual 
assault, the crimes with the lowest reported arrest and 
prosecution rates in the United States. These kits represent 
human beings who have suffered greatly. Testing their rape kits 
sends a fundamental and crucial message to victims that they 
and their cases matter. Not testing the rape kits sends the 
opposite message.
    Take the example of a survivor that we worked with at 
Joyful Heart, a woman named Helena from Los Angeles. When 
Helena was 17, she was abducted at knifepoint from a car wash 
and raped repeatedly. Afterwards at the hospital she submitted 
a rape kit, and for the next 13 years was unable to ascertain 
the status of her kit.
    Helena lived every day of those 13 years in fear of the 
rapist, who had vowed to kill her family if she reported the 
crime, who had vowed to return and take her as his own.
    When the rape kit was finally tested, the results revealed 
that her rapist was serving a 25-year sentence in Ohio. He was 
known to have raped two other women while Helena's kit sat 
untested. The statute of limitations of her rape had run out, 
but prosecutors are currently pursuing a life sentence for the 
abduction charge.
    Helena said, ``Finally, my nightmares have stopped almost 
altogether. I have a sense of security that I haven't felt in 
over a decade. My home is my own. My family is safe.''
    We must urge law enforcement, after a victim has given her 
consent, to send in the rape kits for testing. We must provide 
law enforcement and prosecutors with training and tools to 
investigate and prosecute sexual assault cases. We must provide 
our inundated crime labs with funding to build their capacity.
    We need better technology to document the number of rape 
kits in storage facilities. We need public awareness to address 
bias against rape victims. And, most importantly, we must keep 
the victim at the center of the reforms. And that means 
ensuring the victims can receive information about the status 
of their cases, creating protocols for victim notification with 
rape kit results and testing decisions, and providing short-
term and long-term supportive services.
    At Joyful Heart, we envision a community that says to a 
survivor, ``We are not impervious to your suffering. We will 
give you our ears if you wish to speak your anguish. We will 
lends you our voices if you cannot find yours. You have 
suffered enough, and your healing is our priority.''
    You here today are all a shining example of a community 
that can strengthen the possibility of healing survivors, 
because you are acknowledging, responding to, and taking action 
to end suffering. You have my fierce commitment to use my 
voice, to commit my resources, and do whatever it takes to 
bring safety, compassion, healing, and justice to victims and 
survivors of sexual assault.
    Thank you for this honor to be here today.
    [The prepared statement of Ms. Hargitay follows:]
                Prepared Statement of Marishka Hargitay
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Scott. Thank you.
    Dr. Hassell?

  TESTIMONY OF CHRISTIAN HASSELL, Ph.D., ASSISTANT DIRECTOR, 
     LABORATORY DIVISION, FBI, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Hassell. Thank you.
    Chairman Scott, Ranking Member Goodlatte, Chairman Conyers, 
and Members of the Subcommittee, I thank you for inviting the 
FBI to provide an update on our activities that are related to 
the Combined DNA Index System, or CODIS, which supports our 
national DNA database.
    While I will be discussing several issues today, I will not 
be addressing the activities of other components within the 
Department of Justice, which have included the administration 
of hundreds of millions of dollars in grant funding. The 
Department will be submitting a statement for the record that 
fully details those activities.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Hassell. CODIS refers to the entire program of DNA 
indices that includes both the offender index and the forensic 
casework index. It integrates this information at three levels; 
that is the national, State, and local level.
    The acronym ``NDIS'' stands for the National DNA Index 
System. And for our general discussions today, we can just 
consider that CODIS and NDIS are going to be used synonymously.
    One of the underlying concepts behind the development of 
CODIS was to create a database of a State's offender profiles 
and use it to solve crimes for which there are no suspects. For 
example, a DNA profile may be developed from a sexual assault 
evidence kit.
    If there is no suspect to match that profile with, then 
NDIS can be then utilized in two ways.
    First the profiles can be searched against the offender 
daily index to possibly link that kit to a particular offender 
already in the database. Second, if there is no match in the 
offender index, the DNA profile is searched against other 
crime-scene DNA profiles contained in the forensic index. If 
there is a match here, that means that two or more crimes can 
be linked, and the law enforcement agencies involved in the 
separate cases were able to exchange information to help 
identify the perpetrator.
    There are currently over 8 million offender DNA profiles 
and 300,000 forensic profiles contained within NDIS. Since its 
inception in 1990, the system has assisted in over 112,000 
investigations at the national, State, local and tribal levels 
by either identifying the perpetrator or by linking crimes.
    Let me state clearly, we recognize there is a real person 
behind each of these numbers. And we further recognize that we 
have an obligation to serve those victims by ensuring that the 
system is as efficient as possible, while maintaining the 
integrity that is associated with forensic DNA analysis.
    Because of limited capacity, Federal, State and local 
laboratories are often forced to prioritize their cases based 
on court dates and whether or not a suspect has been 
identified. This often leaves those cases in which there is no 
suspect--that is, those cases for which CODIS was specifically 
designed--they remained unanalyzed in evidence storage.
    To help relieve this backlog, some Federal, State, and 
local crime labs utilize private commercial labs to analyze DNA 
samples, and thus these vendors play an important role in the 
overall NDIS process.
    Approximately half of the DNA offender records in NDIS were 
analyzed by private laboratories operating under contract to 
government agencies. The FBI laboratory is currently performing 
a review to determine what improvements can be made to 
facilitate more timely uploading of DNA records into NDIS. This 
includes reevaluation of existing policies, standards, and 
protocols that guide the use of private laboratories in law 
enforcement DNA analysis.
    This review was only initiated recently and no changes have 
yet been made to any procedures or standards that are 
associated with NDIS. The review includes the FBI's engagement 
with many stakeholders, including State and local law 
enforcement, their associated laboratories, and various 
scientific and accrediting organization.
    As the administrator of NDIS, the FBI has an obligation to 
perform this review to ensure that law enforcement agencies are 
not hindered by excessive procedural requirements, thus 
limiting the quantity of samples that are added to NDIS. At the 
same time, we have an obligation to ensure that the quality of 
the data is not endangered by lack of oversight and procedural 
integrity.
    NDIS has proven to be invaluable for the law enforcement 
community and ultimately to crime victims and their families. 
Since more crimes are solved, as more records are placed in the 
database, enhancing the operational procedures is imperative 
for optimal efficiency.
    Since its inception, the field forensic DNA analysis has 
relied on scientific validation as the basis for decisions. And 
indeed the 2009 National Academy of Sciences Report on the 
Current State of Forensic Science notes a need for scientific 
validation and for data-driven conclusions for all disciplines 
citing DNA as a model. This evaluation, as I described, is no 
different and it will be validated and data-driven. At the same 
time, the FBI is committing considerable resources to ensure 
that it is carried out as quickly as possible.
    Thank you again for allowing the FBI to explain its 
position on this important issue.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Hassell follows:]
                Prepared Statement of Christian Hassell
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Mr. Boschwitz.

TESTIMONY OF JEFFREY S. BOSCHWITZ, Ph.D., VICE PRESIDENT, NORTH 
AMERICAN SALES AND MARKETING, ORCHID CELLMARK, INC., PRINCETON, 
                               NJ

    Mr. Boschwitz. My name is Dr. Jeff Boschwitz. I am vice 
president and executive officer of Orchid Cellmark, one the 
largest worldwide providers of forensic DNA testing. On behalf 
of the company, I would like to thank the Committee and 
Chairman Scott for the opportunity to provide testimony on this 
important subject.
    Cellmark was one of the originators of the technology used 
today for forensic DNA testing. And as the only private lab 
with significant presence in both the U.S. and the U.K., it is 
uniquely positioned to share insights on the rape kit testing 
backlog issue with the Committee.
    The NIJ's most recent estimate of the Nation's DNA testing 
backlog shows that it actually tripled between 2005 and 2008 to 
70,000 cases, despite the hundreds of millions of dollars 
invested to eliminate it. This does not even count the hundreds 
of thousands of rape kits that are in police storage and have 
never been submitted to the crime lab for testing.
    One of the concerns raised about testing these rape cases 
is there is not sufficient financial resources to meet this 
incremental testing demand. While incremental funding would 
certainly be of benefit.
    We also want to make the Committee aware, as Congressman 
Schiff has, that specific regulatory changes can be made to 
increase the available testing resources without incremental 
spending by eliminating some of the obstacles with more 
effective public-private partnerships, as Dr. Hassell just 
referred to.
    Under the current quality assurance standards developed by 
the FBI, public and private labs must meet the exact same 
accreditation and quality standards for day-to-day generate to 
be eligible for upload in the CODIS. As part of these 
standards, both public and private labs must perform two 
technical reviews of data. When the public lab has completed 
that second review, standard 17 of the quality assurance 
standards dictates--I'm sorry. When the public lab concluded 
that second review, the data can then be uploaded in the CODIS.
    When the private labs completed that second review, 
standard 17 dictates that the data must be sent to a public lab 
for a third review of each case by a public lab employee before 
the result can be uploaded in the CODIS, as Congressman Schiff 
alluded to. The direct impact of this rule is an additional 90 
minutes to 4 hours of public lab labor per case, which can add 
as much as 25 percent to the cost of testing; more, if overtime 
is used, which is often the case. And Congressman Schiff 
referred to use of overtime in L.A.
    On top of this cost, standard 17 also requires that public 
labs perform at least one site visit to each private lab it 
utilizes, even though these labs are audited by the accrediting 
agencies. These rules exist today despite an absence of any 
published empirical evidence that we are aware of by a third 
party showing differences in public and private lab data 
quality. And in the face of statements from Marsh private lab 
users like LAPD, as Congressman Schiff mentioned, do not find 
errors in these reviews. It is not to say the private labs have 
not made mistakes in the past.
    There are also, of course, numerous examples of public lab 
errors, as the Committee is aware. And new evidence that the 
incremental burden being placed on public labs for this review 
is benefiting victims in law enforcement.
    On the other hand, the negative impact of these rules on 
victims and law enforcement is significant. As Congressman 
Schiff mentioned, because the analysts must perform these 
reviews on top of their existing caseload, it can take months 
for the reviews to be completed and the data to be uploaded in 
the CODIS. The time it takes to clear the second backlog 
results in an even greater period of time for a serial criminal 
to remain free and commit additional crimes.
    Finally, because the public labs don't have the extra 
resources to perform these reviews, many don't consider public-
private partnerships to be a viable option at all, even when 
the alternative approach may take longer and ultimately cost 
more money.
    As an example, the recent CBS news report, ``The Rape Kit 
Backlog,'' there was a 500-case stranger rape backlog 
identified in Oakland which they said would take at least 2 
years to complete, even though working with a private lab would 
lead to backlog completion less than 6 months. That is up to 18 
more months that rapists could have been caught, that they will 
be free to commit additional crimes.
    The impact of the rules on the efficient use of existing 
funding to test rape kits for DNA is also significant. Private 
labs, because they compete for contracts on costs and quality, 
and have dedicated IT and R&D resources focused on innovation 
and continuous improvement can be at much as 25 or 50 percent 
more cost-efficient than public labs. In fact, cost differences 
are greater when you consider Federal grants, since Federal 
grant money can only be used for overtime when not used for 
private labs or equipment.
    The negative impact on the regulations is also great when 
you consider how they are actually preventing law enforcement 
from funding DNA testing out of their discretionary budgets.
    There are several examples, particularly in States like 
Texas, where local law enforcement has been told by their local 
lab that they cannot contract out for testing, specifically 
because of the incremental burden placed on the lab by standard 
17. So even when there is money to complete additional DNA 
testing, the testing is not performed in crimes, including 
rapes, which otherwise could have been prevented can be 
committed.
    The case study for the benefits of modifying standard 17 is 
well-established in the U.K., where public labs and private 
labs have had to meet the exact same quality of standards and 
accreditation requirements for several years. This has enabled 
the U.K. To take advantage of the power of competition to 
increase service and quality and decrease costs. Results have 
been compelling. Not only has the backlog in the U.K. Been 
eliminated, but the cost of testing has dropped significantly 
at the same time, and contract turnaround time for testing has 
been greatly shortened. In fact, in some cases contract 
turnaround time for no suspect rape cases is just 10 days. For 
property crime it is just 3 days. For convicted offenders' 
samples, it is just 2 days.
    So why not modify standard 17? We have spoken with over 20 
public labs for input on this matter and I have identified 
several important concerns and some misperceptions that we 
believe can be mitigated, addressed, or clarified. In the 
interest of time, we have left the detail addressing these 
concerns in our written testimony.
    Thank you, Chairman Scott, and the Committee, for your 
attention.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Boschwitz follows:]
               Prepared Statement of Jeffrey S. Boschwitz
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Mr. Marone.

  TESTIMONY OF PETER MARONE, DIRECTOR, VIRGINIA DEPARTMENT OF 
                 FORENSIC SCIENCE, RICHMOND, VA

    Mr. Marone. Thank you, Chairman Scott, Ranking Member Poe, 
Chairman Conyers. I thank you for inviting me to testify today. 
I am testifying as the director of the Virginia Department of 
Forensic Science. Today we have heard about the horrible crimes 
that were inflicted upon innocent victims. Like you, I struggle 
to understand the victim's fear, anguish and anger, but we 
can't really possibly understand the suffering endured by 
sexual assault victims. All we can do is work tirelessly to 
bring the justice they serve.
    And, by the way, thank you, Chairman, for not mentioning 
that I started this work career, if you will, in 1971. The idea 
that sexual assault evidence can sit stagnant is difficult to 
comprehend and even harder to explain. It is the result of 
capacity not keeping up with demand.
    Mr. Chairman, in the past you have asked me before what it 
would take to fix things; and just as I answered before, I give 
you the same answer. It is not a--just a simple answer. It is 
not only about getting rid of backlogs. Backlogs are not the 
disease, they are the symptom.
    The cure comes from increasing capacity of crime labs to 
handle the number of cases coming in the door. According to the 
Department of Justice, over the period covering the funding 
over the Debbie Smith Act, the capacity to process DNA cases 
has increased nationally by threefold. During that same time, 
however, the demand for testing has also increased threefold. 
Ironically, the increase in backlogs does not come from an 
increase in crime; rather, it comes from an increase in 
knowledge, an increase in the types of cases to analyze that 
are available, and the sensitivity of the methodologies that we 
have been using.
    Crime laboratories as a whole don't treat cases on the 
basis of bulk numbers but, rather, by crime type and the 
circumstances of a particular case. Each case is evaluated 
separately. Each case is different.
    We understand the value of analyzing sexual assault 
evidence. Investigation of sexual assaults and the prosecution 
of sexual predators is very complex, involving many parties in 
the criminal justice system, and a lot of collaboration.
    Through the testing of physical evidence associated with 
sexual assault, the Nation's crime labs brought out a critical 
investigative tool for the prosecutorial tool and defense tool. 
Though DNA has received the most attention when discussing the 
investigation of physical evidence associated with sexual 
assault, several other forensic sciences provide invaluable 
investigative information.
    In Virginia I know, for example, that 25 percent of the 
cases that we worked that come in with a named suspect, that 
individual is eliminated as being the perpetrator in DNA. 
Latent prints are collected and can be used to identify 
suspects. Trace evidence such as fibers and shoe prints, can be 
used to associate a suspect or crime to a scene or a victim, 
and toxicology tests of the victim's blood or urine can be used 
to identify drugs that may have been used to subdue the victim.
    My point is, the issue at hand is much more than just rape 
kits. And all morning we have been speaking about rape kits. 
There is a significant amount of more evidence than just a kit. 
Many of those cases come in with clothing and bedding and all 
sorts of other types of evidence. In Virginia, I know for 
example, that 15 to 20 percent of the sexual assault cases 
involve forensic examinations other than DNA. These additional 
examinations are not necessarily requestedat the time of the 
submission. Many of them occur during the examination process, 
since the examiners are specifically and constantly looking for 
that next piece of evidence that might help solve the case.
    For some labs the pressure has caused them to outsource the 
analysis of rape kits as part of their prioritization in 
deadlines to process kits. This has caused some issues in 
States with timeliness of work. Private labs state they have 
the capacity to work a significant number of cases relatively 
inexpensively and much more quickly than public labs. The 
figures often given often do not include the issues of the 
initial analysis that I spoke of; that is, the preparatory work 
before you get to perform the DNA.
    When a laboratory outsources a case, they must identify the 
samples to be tested and forward it for outsourcing. If not, 
that contract has to include, with a private lab, that type of 
analysis. And the cost of those figures are not the same as 
just working DNA. The process is often more time-consuming. 
That initial analysis is more time-consuming for the analysis.
    Performing DNA testing on a specific set of selective 
samples requires much fewer resources. Individuals who were 
performing initial screening of cases for the purpose of 
identifying those cases that are to be outsourced are 
consequently not available for actually working the cases. They 
are just inventorying them and getting them ready to go out the 
door. Yet the value of the research often isn't figured into 
the projected cost of the outsourcing analysis.
    The other issue of what actually occurs when outsourced 
cases eventually go to trial has really not been adequately 
addressed. I know of instances where outsourcing has resulted 
in logistical problems in scheduling expert witnesses when it 
comes time for the court docket and the schedulers. 
Additionally, there are questions regarding who pays for the 
expert testimony and travel costs.
    I know if you look at it from a broad picture, there is 
probably only 5 or so percent of those cases that go to court; 
but for Virginia, working 300 cases a month as we do, that is 
16 cases a month that we go to court on. And that could be 
$32,000 that somebody has to cough up to pay for that 
testimony, not just a simple 5 percent increment.
    So how do we resolve the problem? We need to increase the 
capacity of labs to meet the workload that is coming into them. 
Meeting the needs for the analysis of sexual assault cases is 
primarily accomplished through effective resource allocation.
    During that time period that I spoke of before, funding 
from the Debbie Smith Act, laboratories have acquired and 
validated new, more efficient equipment, added personnel, begun 
utilizing robotics for some operations, and continue to add 
more automated applications. They have also started using 
SmartSystems for some of the data reviewed.
    I am seeing more and more statements by laboratories that 
they are reducing their backlogs or are on the verge of being 
current. For Virginia, between 2004 and 2010, because of a 
number of issues such as turnover and some budget reductions 
and so forth, as well as difficulty recruiting fully qualified 
individuals, the DNA staff has actually decreased by 10 
percent. During that same time period, because of the addition 
of more equipment and automation, the backlog has decreased 50 
percent. And if trends continue as they are now, we can reduce 
that backlog at a rate of about 100 cases per month. So 
sometime by the end of this year, the beginning of next year, 
maybe this time next year we will be current. And that figure 
doesn't include the six additional grant-funded, fully-funded 
positions. So it is not just done on overtime. You can have 
restricted grant-funded positions that are full-time working.
    Grants should focus on building long-term capacity, not 
only on eliminating backlogs. To do otherwise will cause a 
cycle to continue to repeat. Backlog increases, cases are 
outsourced, and while that is happening more cases build up. 
The labs will be where they started from and so will the 
victims. Thank you very much.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Marone follows:]
                   Prepared Statement of Peter Marone
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. We will begin questions on the 5-minute rule. 
The Chairman of the full Committee Mr. Conyers.
    Mr. Conyers. Thanks, Chairman Scott. This is an incredibly 
important panel of witnesses that follow up with our colleagues 
that testified earlier. I am grateful to you all, especially 
Prosecutor Kym Worthy who went way out of her way and off her 
schedule to be with us here today. All of you are doing a great 
job.
    There has been a lot of description about the problem, 
especially from the last three witnesses. But what do you mean, 
Marone, there are no solutions? You sound like the typical 
bureaucrats that come into government and start giving us a 
one-on-one lecture about how difficult this all is.
    Look, the police don't even recognize that this is 
evidentiary work that we are on. That is the first thing. So 
what I think, Kym Worthy, we ought to do--and I have been 
talking with Chairman Scott about it--is that we ought to get 
some recommendations from all of you, including Maloney and 
Weiner and Nadler, and go over to Eric Holder and let's get 
this on with. I mean, we are talking about lives being wrecked 
in huge numbers.
    And there may be a problem with the DOJ burdens, Boschwitz, 
but, look, they are the ones that prosecute these things. I 
don't know whether they are burdensome as you suggest or imply, 
or not. But I would like to take Worthy over there with us when 
we meet.
    And the next thing, Chairman, I would like us to consider--
these are all considerations--what about the Association of 
Police Chiefs? Half the cops don't even treat the kits 
seriously. What do you think, Kym?
    Ms. Worthy. They don't treat it seriously because, as you 
know, when this problem happened we discovered the problem. 
Last September I wrote a letter to the chief of police. He 
ignored me. It wasn't until someone from his office leaked the 
letter. I would admit if I leaked it, but I didn't. It is not 
that I wouldn't, but I didn't. And it was in the paper, and 
then the journalists started getting upset about it, and 
finally they started to listen. But that was 6 months later. 
And I can't tell you the outrage that we feel.
    It is incredibly hard to get your hands around those 
issues. It is incredibly difficult to get the funds you need to 
do it. It is more difficult to tell our rape victims that these 
tests haven't been completed. We have had people call our 
office and I have had to tell them, I don't know if your rape 
kit is among those because of the way that they were labeled 
and the way it was done.
    We are trying to fix that now. And we have obtained some 
funding from the State to have this audit, to get a snapshot of 
what we have.
    Mr. Conyers. Well, if it hadn't been for you, we wouldn't 
even have known what our situation was, and it never would have 
been brought up. There are plenty of counties and jurisdictions 
where they don't know what the rape kit situation is, because 
there is no Kym Worthy or someone like her demanding that we 
make a stab at this; that we go looking for them and find them 
in closets and basements and so forth.
    Ms. Hargitay, we are so happy that you are here. What kind 
of recommendations would you meet the Judiciary Committee with?
    Ms. Hargitay. Well, first, if I can just add something to 
what Ms. Worthy said, Nicholas Kristoff quoted Polly Poskin, 
the executive director of the Illinois Coalition Against Sexual 
Assault, 2009 New York Times editorial about the rape kit 
backlog. If you have got stacks of physical evidence of a crime 
and you are not doing anything--everything you can with the 
evidence, then you must be making the decision that this isn't 
a very serious crime. So that decision has the power to 
traumatize rape victims further, because they are seeking 
recovery and healing. So I think that by not testing the rape 
kits that is what we are saying, is that it is not a serious 
crime. That is what I understand from the quote.
    As I said in my testimony, I feel that my role here is to 
use my voice to bring many voices forward, advocates in the 
field and survivors. So I would like to consult them in 
answering your question. I want to make sure that I am 
representing their needs and their concerns best. I am an 
advocate, but certainly not an expert, and I am sitting among 
experts.
    Mr. Conyers. Well, Ms. Neumann, the thing that you said 
that really leads me to have to talk with our colleagues more 
is that you said, I don't think--I don't know if I would really 
go through that rape kit business again. I just hope that we 
can find some way that it is less intrusive and painful and 
traumatic. I mean, you have trauma and then you have got 
another, and that leaves me not feeling so good about this. I 
don't know what the medical picture is, if it can be improved 
or not.
    Ms. Newmann. I think it would be one thing to go through it 
and know it gets used; but to go through it, and for it to sit 
on a shelf is a completely different thing.
    Mr. Conyers. I see your point. Why go through it if the 
chances are just as high that it will be put in a closet 
somewhere?
    Ms. Newmann. Right.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Scott. Thank you. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here.
    Before I got to come to Congress I was a judge in Houston 
and tried felony cases for 22 years. And before that I was a 
prosecutor, Kym, Ms. Worthy, and those were the best days. I 
think all prosecutors look back upon the days when they 
prosecuted as the most rewarding of their careers. I have been 
around so long I remember when there were no rape kits. If you 
had to prosecute a case it was the victim and the defendant and 
a swearing match.
    We have come a long way since then. Not far enough, but we 
have come a long way. We have come so far that juries now 
expect forensic evidence. Right or wrong, they expect it. 
Thanks to shows like Law & Order, Special Victims Unit, and all 
of that and the technology, juries expect it.
    So without forensic evidence, still in the real world in 
jury trials, juries question the case. They question the 
prosecution, even though it may exist. And juries never 
understand why a rape kit was performed. A case is tried and 
that evidence is not in the courtroom. You cannot explain that 
to a jury.
    So we know the problem, but we have to cut to the chase and 
solve the issue to make rape kits accurate, the results 
accurate, and we have to get the results. And I think we ought 
to use government agents in those labs; we ought to use private 
labs; have a protocol, have it simple but perfect; and that we 
get the right result and then solve these cases. It will cost 
money, but so what? I mean, that is the responsibility of 
government to protect citizens like Ms. Neumann.
    There are a lot of crimes, but when you get to the crime of 
sexual assault, that is the worst crime in my opinion, because 
of what the perpetrator tries to do to the victim's spirit. And 
we as a culture need to recognize that; that those are special 
victims and they should be treated special in our court system. 
Their cases need to be heard first.
    That is one good thing about the Texas law. Sexual assault 
cases, you go to the front of the line. You get tried first, as 
they should be, because victims in the system continue to be 
victimized by the system. And we have to end that and make sure 
that the same Constitution that protects defendants, protects 
victims of crime as well.
    So I appreciate all of you being here, but I think we need 
to solve the problem. Backlogs have to be dealt with. There 
should be no backlog.
    My question to you--any of you can answer this--at about 
the storage? Do we know how many rape kits are being stored 
throughout the country, and are they being stored adequately so 
that that evidence can be used down the road?
    Dr. Hassell, you want to give me a short answer to that?
    Mr. Hassell. Most of our focus has been on when it hits the 
laboratory door.
    Mr. Poe. So you don't know what happens to it from the time 
it is taken from the hospital, the police get it, then 
eventually you see it; you don't know where it is during that 
gap?
    Mr. Hassell. No, sir. But we do recognize, though, if there 
are any inefficiencies when it does hit the front door of any 
laboratory, if there are any operational inefficiencies there, 
that will slow down the process. That will affect whether or 
not people will submit.
    Mr. Poe. Do you have any percentage you can give me about 
blood rape kits that had been stored, they come to you and 
because of some problem in the storage, they are not adequate 
to get a result from?
    Mr. Hassell. I don't have that for you today. I can check 
back with my colleagues at the Department.
    Mr. Poe. Ms. Worthy, do you want to comment?
    Ms. Worthy. Yes. I have to give you even more of a horror 
story, Judge. When this happened, I wrote a letter to all of 
the hospitals in the tricounty area of Detroit. We found out we 
had an innumerable number of rape kits that had not even been 
picked up from the hospital after the rape kits were done. So 
the answer--short answer is no, we have no idea how many.
    Mr. Poe. So we need a protocol from when the rape kit is 
performed by the hospital, what happens to it.
    Ms. Worthy. Now we are making sure we are putting measures 
in place. It is supposed to be picked from the hospital by the 
police agency. You have to establish a chain of custody to make 
sure that there is----
    Mr. Poe. That is right.
    Ms. Worthy. You know that. And then it goes to--we 
thought--the property room, and then--that is where it ended 
up. But it is supposed to go to the testing agency, to the 
laboratory.
    Mr. Poe. So technically you think the lab ought to store 
the rape kits?
    Ms. Worthy. They will kill me for saying that.
    Mr. Poe. Yeah. Well, I think they should. I will say it, 
they can try.
    Ms. Worthy. But the director of MSP, Michigan State Police, 
say all the time they don't have the room. He doesn't like me 
saying that, but that is where it should be.
    Mr. Poe. Well, we need to focus finances on that problem. I 
mean some places still give the rape kit to the victim.
    Ms. Worthy. That is right, and the bottom line is--I call 
you Judge because you are an ex-judge. At the end of the day, 
the judges and the prosecutors and the other witnesses and the 
police go home. But the rape victim or the child molestation 
victim lives with it for the rest of their lives.
    Mr. Poe. That is exactly correct.
    Ms. Worthy. We go home at the end of day. And so I think 
that kind of says it all. So we have to do more of our part 
collectively.
    Mr. Poe. Thank you all for being here. Thank you 
especially, Ms. Neumann, for your story.
    Mr. Scott. Gentleman from New York, Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me begin by thanking all of our witnesses here for 
their role in combating the scourge of rape and the problem 
with rape kits. And let me express my condolences to Ms. 
Neumann for what you went through.
    Let me begin by asking Ms. Hargitay the following question. 
You testify about the usefulness of the SANE programs and how 
useful they are, and how only 500 SANE programs exist across 
the country. We should continue funding for the training 
programs as well as commitment to create new programs.
    Do you think it would be worthwhile if the Federal 
Government and legislation were to require that every county or 
every city had a SANE program?
    Ms. Hargitay. I do. I just participated in a video that was 
made that actually taught medical personnel how to perform the 
kit, because oftentimes the rape victim is going through her 
test and she is lying on the table, traumatized, and she has 
got the nurse or the doctor actually reading the rape kit's 
directions of how to perform the rape kit while the woman or 
man is lying on the table.
    Mr. Nadler. So obviously the SANE programs are very useful.
    Ms. Hargitay. Yes.
    Mr. Nadler. And do you think it would be useful if the 
Federal Government required that every major locality have 
them?
    Ms. Hargitay. Again, as I said before, I am not an expert. 
I would really need to check with my----
    Mr. Nadler. We will follow up on that.
    Ms. Hargitay. Thank you.
    Mr. Nadler. Ms. Neumann, you said in your case, which was 
the accused said that he had--that there was no sexual contact. 
He didn't say that there was sexual contact, but that it was 
consensual. He said there was no sexual contact, something 
readily apparent or falsifiable from the rape kit. You had the 
rape kit; had it been checked it would have shown that he was 
lying and it would have destroyed the credibility of what he 
was saying. The policeman said that this fellow had done the 
same thing to other victims, and yet the prosecutor told you--
the prosecutors, attorneys, made it clear they would not go 
back and test your rape kit.
    Ms. Newmann. That is correct.
    Mr. Nadler. Ms. Worthy, is that prosecutor doing his job?
    Ms. Worthy. No.
    Mr. Nadler. Is he violating his oath?
    Ms. Worthy. I think so. Let me just give a caveat, though. 
In some cases, not a case like this, as a prosecutor you can't 
turn away cases because a person may have been drinking, a 
person may have been using drugs, a person may be a prostitute.
    The nine cases--the case I talked about with the serial 
rapist, all nine of them were prostitutes that were known--I 
don't like the word ``crackheads''----
    Mr. Nadler. So the prosecutors didn't think they were 
important people, in other words.
    Ms. Worthy. Your oath says we represent the people of the 
State of Michigan. We don't just represent the people of the 
cases we need to try, we don't just represent the people who--
--
    Mr. Nadler. But in Ms. Neumann's case, it is an open-and-
shut case if they----
    Ms. Worthy. No case is ever open and shut.
    Mr. Nadler. Of course. But as much as any ever is, it 
sounds like an open-and-shut case as much as any ever is if 
they do the kit.
    Ms. Worthy. It sounds like a case that we wouldn't have 
turned away.
    Mr. Nadler. And they shouldn't turn it away.
    Do you think it might be useful if we subpoenaed that 
prosecutor and asked him what his criteria for deciding on 
cases what might be.
    Ms. Worthy. I can't answer that.
    Mr. Nadler. Okay, I will just let the idea hang in the air.
    Let me ask you a different question. Does a judge in a rape 
case in Michigan have the authority to order the police to 
produce the result of a rape kit testing if it hasn't been 
tested?
    Ms. Worthy. Yes, the judge has the authority.
    Mr. Nadler. The judge has that authority. Does he usually 
exercise it?
    Ms. Worthy. The reality is in a jurisdiction like ours 
where we have--that is why I said how many cases we do, we 
don't have the jail space to keep the defendant in jail. We 
don't have--what are they going to get tested? In our case we 
have a Detroit Police Department crime lab shutdown and those 
are the real issues. So the judge usually won't do it because 
they realize the defendant would have to be held for a very 
long time until they get tested, because they don't have the 
facilities to test them all.
    Mr. Nadler. Why would the defendant have to be held if he 
is out on bail? He is not even accused at this point.
    Ms. Worthy. Well, if he is on bond, that would be a 
different story.
    Mr. Nadler. Or he may not even have been indicted.
    Now, should we--if the judges exercise their authority more 
often, would the prosecutor, knowing that, be more likely to 
bring the case in the first place?
    Ms. Worthy. I am sorry; I didn't hear the rest of the 
question.
    Mr. Nadler. If it were the case that judges exercised that 
authority to order these rape kits tested, would prosecutors be 
more likely to bring these cases that they don't bring now?
    Ms. Worthy. Well, prosecutors are going to do what a judge 
orders them to do, yes.
    Mr. Nadler. That wasn't my--well, who has the rape kit, the 
prosecutor or the police; the police do?
    Ms. Worthy. Yes.
    Mr. Nadler. So if the judge more often ordered the police 
to test the kits, would the prosecutors be more likely to A, 
request the judge do so; and B, to bring the case in the first 
place?
    Ms. Worthy. Yes.
    Mr. Nadler. Is there anything the Federal Government can do 
that we can do by legislation to encourage that.
    Ms. Worthy. I am not sure that is legislatively corrected. 
I think it is corrected by judges, who are qualified, taking 
the bench. I mean----
    Mr. Nadler. I hear that. But let me ask you one other 
question on this. We have a lot of victims rights legislation 
that goes through here from time to time, much of which I don't 
like because it plays havoc with the civil liberties of 
accused. But what if we had a bill that said something like the 
State must test the rape kit within 90 days, at the request of 
the victim.
    Ms. Worthy. I think that would be great as long as there 
was companion resources to be done.
    Mr. Nadler. As long we provided resources.
    Ms. Worthy. Yes.
    Mr. Nadler. In other words, in our next bill if we provide 
resources we should also give the victim the right to demand 
and the mandate of that demand be followed.
    Ms. Worthy. I am not sure I like that, because the victim 
often doesn't know or understand there may be legal reasons we 
can't go forward.
    Mr. Nadler. Okay.
    Ms. Worthy. So we have to make that determination.
    Mr. Nadler. Well, what about giving her that right, 
provided certain conditions that we could put in the 
legislation, certain basic conditions?
    Ms. Worthy. I would agree with that in theory, yes.
    Mr. Nadler. And we could work with you on drafting such.
    Ms. Worthy. Yes, in theory. Yes.
    Mr. Nadler. My last question is to Mr. Hassell. Aside from 
adding funds and some of the ideas we have been talking about, 
do you have any other specific recommendations of what we can 
do?
    Mr. Hassell. No, sir, not at this time. But one of the 
things we are doing in this review, though, is seeing what we 
can come forward with, and we are engaging many people.
    Mr. Nadler. And when do you think that review will be 
complete so you can make recommendations to us?
    Mr. Hassell. The entire time frame of the review will be no 
longer than 1 year.
    Mr. Nadler. One year from when.
    Mr. Hassell. From when we kicked it up, which was the end 
of April.
    Mr. Nadler. Which was recently.
    Mr. Hassell. The spring of 2011. Along the way, we will be 
publishing some findings and results of our working group 
meetings, the first working group meeting that should come out 
the end of this month. We will make that available on our Web 
site and we will engage and see if there is anything we can 
bring forth.
    Mr. Nadler. Thank you very much. I yield back. My time has 
expired.
    Mr. Scott. Gentleman from New York, Mr. Weiner.
    Mr. Weiner. Thank you. I don't think we can solve every 
injustice here, but we are going to try to solve yours. If you 
can tell me, Ms. Neumann, just so I understand this and it is 
crystal clear, the prosecutor has said we have this rape kit 
and we are refusing to test it because we lack the funds?
    Ms. Neumann. Two things. Funds--and he also deemed it 
unwinnable, in his mind, because I had been drinking.
    Mr. Weiner. Well, but even if this person's evidence is 
only taken to see if it hits another rape, it should be taken.
    Ms. Neumann. Right.
    Mr. Weiner. The second part is the cost. Dr. Boschwitz, 
your company does DNA tests on rape kits?
    Mr. Boschwitz. That is right.
    Mr. Weiner. Give me the range, whatever it would cost to 
test a rape kit.
    Mr. Boschwitz. Nine hundred to $1,000.
    Mr. Weiner. Can I ask you, Dr. Boschwitz--and I don't want 
to put you in an untenable position, and feel free to answer 
no--would you test this particular case free of charge?
    Okay, if you'd rather not say so, here is what I will say I 
will do. I will pay for it. I will raise the money to pay for 
that kit, and I say here to the prosecutor in Kentucky there is 
no statute of limitations on this case. If the only thing 
separating that--is it a he or a she?
    Ms. Neumann. He.
    Mr. Weiner [continuing]. That prosecutor is his apparent 
unwillingness to try, because he thinks he is going to lose, or 
for want of a thousand bucks. The first thing I think means he 
should be removed, if he doesn't think he can win the case with 
a witness, a rape kit, then I don't know how you make yourself 
a prosecutor. And secondly, if it is for want of a thousand 
bucks, I think among my colleagues here on this panel, we will 
raise the money. Maybe Dr. Boschwitz can offer us a deal.
    Mr. Boschwitz. Sounds good.
    Mr. Weiner. I just--it is beyond--one of the reasons that 
you deserve an enormous amount of credit is that you are 
standing here, putting a face on what could potentially be 
thousands of women who are not as courageous as you, who are 
not as willing to speak publicly before Congress and before the 
cameras. And maybe if we take this one case and we shine the 
bright light on it and we make it clear that for want of a few 
dollars and the courage and intestinal fortitude of someone to 
do his job, you are being denied justice.
    Let's see what happens. Maybe prosecutors around this 
country will say, You know what? I don't want to have this 
light turned up on me.
    Many prosecutors in this country are elected. They have to 
stand before voters and say, This is what I have done this year 
and what I have done every 2 years. So I want to thank you for 
doing that. And that offer stands.
    And I don't know if the prosecutor of Kentucky, you know, 
is at all interested in this subject, but I want to make sure 
he is aware of your testimony, my offer, and I really do 
believe that my colleagues here will join me in this. And even 
if not, I will pay for it personally.
    Mr. Nadler. Will the gentleman yield?
    Mr. Weiner. I will certainly yield.
    Mr. Nadler. I think that is an excellent idea. I think it 
will be unnecessary after we subpoena him here first.
    Mr. Weiner. Look, I think one of the things that we need to 
understand here is that people like Ms. Neumann are not typical 
of rape victims. The level of courage that she is showing in 
keeping the tension on this, it makes her hopefully a 
spokesperson for many others. And I think that one of the 
things that we can do here is take this case and shine light on 
it. And you may think that--how many years and days has it been 
since this incident took place?
    Ms. Neumann. Three years, 5 months and 4 days.
    Mr. Weiner. Three years, 5 months and 4 days. Three years, 
5 months and 4 days since this act took place, but there is no 
longer, on 3 years, 4 months, and 6 days any excuse for the 
prosecutor to continue wallowing in his ineptitude.
    But I want to just point out--and Judge Poe asked a very 
good question, and he wasn't here for the opening statements. 
So let me reiterate it. We don't know how many Valerie Neumanns 
there are in the country. We don't. Despite the fact that we 
are now providing millions of dollars of taxpayer funds to help 
legislatures to pass laws to be able to deal with the backlash, 
we don't know.
    I have got to tell you I bet there are a lot of prosecutors 
like that in Kentucky, and sheriffs and law enforcement 
officials who are a little bit embarrassed who--and that's why 
my legislation would change it. If you want access to these 
Federal dollars for law enforcement, you have got to tell us. 
And if it means that you have got to have a story in the 
newspaper that your local State or county has hundreds of 
untested rape kits, then so be it. But if you want the help 
from the Federal Government in order to deal with law 
enforcement--and just about every law enforcement agency is 
knocking on our door saying give us help--at the very least, 
you should come clean about this. And this is not the end.
    I think that I can say, without fear of any contradiction 
from my Republican friends or anyone on this, we are going to 
make sure that there is no excuse for this prosecutor in 
Kentucky not following up on this case. Win, lose, or draw, we 
are going to make sure he does his job. Even if it means we 
take that kit and we help you subpoena to get it back from the 
law enforcement and we test it ourselves with the help of--we 
are not going to test it; the professionals are going to do it. 
If we have to every single day hand him the results, then that 
is what we are going to go do. But I really do want to thank 
you for testifying today.
    Ms. Newmann. Thank you.
    Mr. Scott. Thank you. Gentleman from Virginia, Mr. 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Dr. Hassell--is it Hassell or Hassell?
    Mr. Hassell. Hassell.
    Mr. Goodlatte. Thank you for joining us today. Can you tell 
us how you justify the FBI proposed review of procedures, since 
this review seems to defy the positions of many State and local 
crime lab directors and CODIS administrators, as well as 
organizations such as the American Society of Crime Lab 
Directors and the Scientific Working Group on DNA Analysis 
Methods.
    Mr. Hassell. One of the things we have done is we brought 
them into the fold to actually do this review. So that is why 
these first working groups, we involved those very people. So 
the American Society for Crime Lab Directors, they sat with us 
when we had our first working meeting at the end of April. We 
will be meeting with more groups as we go forward. But everyone 
is engaged in this that you mentioned there.
    Mr. Goodlatte. Are the majority of backlog samples awaiting 
review attributed to a small number of public labs?
    Mr. Hassell. Part is--a lot of the answers I am giving are 
the fact that we just started this review. Part of that was 
doing a survey. We just got the data back. Just yesterday is 
when I saw it. So we are in the process of compiling that. And 
we will make it available, so I will be able to answer your 
question very shortly.
    Mr. Goodlatte. I guess the question that I would like you 
follow up with the Committee on as you review that data is, if 
that is the case, why not focus on helping those labs rather 
than changing the whole system?
    Mr. Hassell. We could follow up on that once we see the 
survey results and that sort of thing.
    Mr. Goodlatte. All right. One of the issues that I 
understood--and I apologize for having to step out to attend 
another meeting, and perhaps Chairman Scott covered this, 
because I know he and I were discussing it earlier--but the 
issue seems to be whether or not a test given by a private lab 
has to be retested by a public lab in all cases, or does it 
just have to be retested in a case where there is a positive 
match?
    Mr. Hassell. It is reviewed, it is not retested. So there 
is a third review. It is done at the law enforcement agency 
that does contracting with the private lab. It is a review of 
the profile, the actual data they get back. It also is looking 
at the eligibility of that sample for upload.
    Mr. Goodlatte. And am I correct in that a test done by a 
private lab can go directly into the database?
    Mr. Hassell. No, sir. It has to go through that review.
    Mr. Goodlatte. Why is that? Since it has to be reviewed 
again anyway to be used as criminal evidence in a case, or 
perhaps even retested, why would there not be a desirability to 
get that information into the database for future use as 
quickly as possible?
    Mr. Hassell. That is one of the very issues we are looking 
at in the whole review, is to get our stakeholders together to 
answer that question.
    Mr. Goodlatte. Do you think it is a good idea?
    Mr. Hassell. It could be done if the private laboratories 
are held to the same standard of oversight. There is a 
difference in oversight and monitoring of private and public 
laboratories. The accreditation is there, but it is matter of 
oversight. So if that is harmonized, then it could be possible.
    Mr. Goodlatte. Thank you.
    Ms. Hargitay, do you hear from victims of sexual assault 
that their treatment by the criminal justice system has been 
something less than the care and compassion that is afforded to 
the victims by the detective you play on television? Is the 
real world as people see it on television?
    Ms. Hargitay. No, it is not. And I think that is why my 
character has become so possible. I get a lot of fan mail 
saying, I wish the detective who handled my case was like you. 
I think one of the reasons I started the Joyful Heart 
Foundation was to truly shed a light on something that people 
for some reason don't want to talk about. Sexual assault is a 
very scary thing to talk about. People don't--are afraid of it. 
They don't have the language to talk about it. They are scared 
of what it will be. It will rip apart families, it ruins lives. 
And these women have shame on them that they don't know how to 
relieve themselves of. And so many times the shame is with the 
victim as opposed to the perpetrator.
    And so I think where Joyful Heart is about the courage to 
heal, as Mr. Weiner said, the courage; it is about the courage. 
It takes so much for a survivor to come forward and to muster 
that courage, to come forward. And to then have nothing done 
about it, what are we saying? What are we telling? Who are we 
protecting? We are saying, You don't matter.
    Lives are ruined because of it. People think nobody cares 
about me. I don't matter. If this happens to me and people are 
going, You know what, sweetie, you don't matter.
    That is what we are saying. I think that is why--and if New 
York can do what it has done and get rid of the of the backlog, 
I feel that we can do it.
    There are so many components that obviously we have to take 
in and this is why we are here today. I am so grateful to have 
all these minds together to figure out truly what can we do. 
But I think it is desperate. If we want to create the next 
generation of respectful, kind people that are not criminals, 
we need to educate them and shine a light on sexual assault and 
say what is acceptable, what is not.
    If you perform this crime, these are the ramifications. 
They must be tested. We are letting--we are consciously letting 
criminals walk again. We are saying it is okay, you can do it 
again. We are letting criminals go and saying there are no 
consequences. Do it again, nine times, one time, two times, 
three times. Thirteen years if a rape victim can't get the 
status of her DNA, of her rape kit? Thirteen years? Three 
years? It is unacceptable. It is unacceptable.
    Mr. Goodlatte. Well, thank you and thank you to all of you 
for the efforts you are making to educate us, educate the 
public about the nature of this problem and what can be done to 
solve it. Thank you Mr. Chairman.
    Ms. Hargitay. Thank you. Thank you so much.
    Mr. Scott. And we are going to have to adjourn the hearing. 
I think Mr. Cohen wanted to make a very brief statement.
    Mr. Cohen. Thank you, Mr. Chairman. I just want to thank 
you for having this hearing and for the witnesses that are 
here. This is so important of a subject. My city is, 
unfortunately, at the bottom of the ladder as far as caring in 
the past. Under the previous city administration we had in 
Memphis, the Memphis Sexual Assault Resource Center that had 
opportunities to care for women and interview them and have 
them tested had to close down because they had inadequate, 
incompetent people staffing it. And the rape kits there have 
been piled up and not tested for years and years and years.
    Fortunately, we have a new mayor who took it over when he 
was county mayor, but it was horrendous. And this should not 
happen. It is an assault against all women and it is wrong. And 
I thank you for the hearing and the witnesses for testifying.
    I yield back the balance of my time.
    Mr. Scott. Thank you. I would like to thank all of our 
witnesses for their testimony today. This has been extremely 
helpful. And I would ask you to review the bills before us, if 
you have specific recommendations to make those 
recommendations. Particularly one question was, who was tested 
and whether we are overtesting. But if you could review the 
bill and provide that information to us. Members may have 
additional written questions which will be forwarded to you, 
and we ask that you answer them as promptly as you can in order 
that answers may be made a part of record.
    Without objection, I have a report by the Human Rights 
Watch, entitled ``Testing Justice'' that I would like entered 
into the record. Without objection, so ordered.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________

    Mr. Scott. The hearing record will remain open for 1 week 
for submission of additional materials.
    Without objection, and thanking the witnesses again, the 
Subcommittee stands adjourned.
    [Whereupon, at 11:01 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
